<html>
<title> - NATURAL RESOURCE ADAPTATION: PROTECTING ECOSYSTEMS AND ECONOMIES</title>
<body><pre>[Senate Hearing 113-749]
[From the U.S. Government Publishing Office]








                                                        S. Hrg. 113-749

    NATURAL RESOURCE ADAPTATION: PROTECTING ECOSYSTEMS AND ECONOMIES

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON OVERSIGHT

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                           FEBRUARY 25, 2014

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://www.gpo.gov/fdsys









                                                        S. Hrg. 113-749

    NATURAL RESOURCE ADAPTATION: PROTECTING ECOSYSTEMS AND ECONOMIES

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON OVERSIGHT

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 25, 2014

                               __________

 Printed for the use of the Senate Committee on Environment and Public 
                                 Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.gpo.gov/fdsys
                              __________
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE 

97-585 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                              
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
THOMAS CARPER, Delaware              DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JAMES M. INHOFE, Oklahoma
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
TOM UDALL, New Mexico                MIKE CRAPO, Idaho
JEFF MERKLEY, Oregon                 ROGER WICKER, Mississippi
KIRSTEN GILLIBRAND, New York         JOHN BOOZMAN, Arkansas
CORY A. BOOKER, New Jersey           DEB FISCHER, Nebraska
EDWARD J. MARKEY, Massachusetts

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                              ----------                              

                       Subcommittee on Oversight

                  CORY A. BOOKER, New Jersey, Chairman
SHELDON WHITEHOUSE, Rhode Island     JAMES M. INHOFE, Oklahoma
EDWARD J. MARKEY, Massachusetts      JOHN BOOZMAN, Arkansas
BARBARA BOXER, California (ex        DAVID VITTER, Louisiana(ex 
    officio)                             officio)





















                            C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 25, 2014
                           OPENING STATEMENTS

Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     4

                               WITNESSES

John, Holdren, Hon. P., Ph.D., Director, Office of Science and 
  Technology Policy, Executive Office of the President...........     7
    Prepared statement...........................................     9
    Responses to additional questions from Senator Vitter........    14
Ashe, Hon. Daniel M., Director, United States Fish and Wildlife 
  Service........................................................    31
    Prepared statement...........................................    33
Matson, Noah, Vice President for Climate Adaptation, Defenders of 
  Wildlife.......................................................    51
    Prepared statement...........................................    54
Houghton, David, President, National Wildlife Refuge Association.    61
    Prepared statement...........................................    63
Brown, Christopher, President, Rhode Island Commercial 
  Fishermen's Association........................................    71
    Prepared statement...........................................    72
Moore, Patrick, Ph.D., Chair and Chief Scientist, Ecosense 
  Environmental..................................................    74
    Prepared statement...........................................    76
Bryce, Robert, Senior Fellow, Manhattan Institute for Policy 
  Research.......................................................   127
    Prepared statement...........................................   129
    Responses to additional questions from Senator Vitter........   142

                          ADDITIONAL MATERIALS

Statement of Judith A. Curry Georgia Institute of Technology 
  Climate Forecast Applications Network, LLC.....................   216
Statement of Dr. Roger Pielke, Jr., Professor, Center for Science 
  and Technology Policy Research, University of Colorado.........   230
Article, American Meteorological Society, Bulletin of the 
  American Meteorological Society................................   240
Article, Wallace P. Erickson, Gregory D. Johnson, And David P. 
  Young Jr.; A Summary and Comparison of Bird Mortality from 
  Anthropogenic Causes with an Emphasis on Collisions............   270
Report, Environmental Health Perspectives and the National 
  Institute of Environmental Health Sciences, A Human Health 
  Perspective on Climate Change..................................   291
Report, Critical Thinking on Climate Change, Questions to 
  Consider Before Taking Regulatory Action and Implementing 
  Economic Policies..............................................   370
Comentary, John C. Fyfe, Nathan P. Gillett, and Francis W. 
  Zwiers, Overestimated global warming over the past 20 years....   399
Report, U.S. Global Change Research Program and the Subcommittee 
  on Global Research, Our Changing Planet........................   402

 
    NATURAL RESOURCE ADAPTATION: PROTECTING ECOSYSTEMS AND ECONOMIES

                              ----------                              


                       TUESDAY, FEBRUARY 25, 2014

                               U.S. Senate,
         Committee on Environment and Public Works,
                                 Subcommittee on Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room 406, Dirksen Senate Building, Hon. Sheldon Whitehouse 
(chairman of the subcommittee) presiding.
    Present: Senators Whitehouse, Markey, Inhofe, Vitter, 
Sessions.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. The distinguished ranking member is on 
his way, so I will open with my opening statement.
    First of all, we will call the hearing to order and I will 
open with my opening statement. Then when Senator Inhofe 
arrives, if he is here at the conclusion of my opening remarks, 
he can give his. If not, I will interrupt the witness and allow 
whoever is speaking at the time to yield to my distinguished 
ranking member.
    We are here today for the committee to discuss the benefits 
that our American natural resources provide to us and the need 
for adaptation planning to protect these American resources in 
the face of climate change. I have been proud to work on this 
issue in recent years with former Senator Max Baucus. While Max 
is no longer here in the Senate, I am glad that this committee 
is meeting today to carry on this important work. From the 
beaches of Rhode Island to the glaciers of Montana, nature's 
bounty provides us with life's essentials: clean air and water, 
crops and timber, recreation and our outdoor heritage. Climate 
change threatens to rob us of these essentials.
    I have gone to the Senate floor now nearly 60 times to urge 
my colleagues to wake up to the facts of carbon pollution. But 
the fact of the matter is that even if we stop carbon pollution 
today, we still face decades of change in our air and water and 
temperatures and in extreme weather.
    So while we must take up the challenge to reduce greenhouse 
gas emissions, we must also begin to prepare and adapt and 
secure our natural resources against the changes that we cannot 
avoid. Status quo management and planning will not be good 
enough. A GAO report on the topic, citing several sources, says 
``Natural resource management has historically been based on 
the idea of maintaining current environmental conditions, or 
restoring species and habitats to some desired former 
condition. As the climate continues to change,'` GAO concludes, 
``this approach will become increasingly more difficult, if not 
impossible to maintain.'`
    But adaptation to warming air and ocean temperatures to 
catastrophic weather events, even to full ecosystem shifts, 
isn't easy work. And the Federal, State and local leaders we 
entrust to protect our property and our ecosystems are often 
constrained by outdated laws and regulations.
    That is why Senator Baucus and I introduced the Safeguard 
America's Future and the Environment Act, the SAFE Act, for 
short. It puts all climate adaptation tools and approaches on 
the table and would engage local stakeholders as well. As a 
first step, the SAFE Act requires adaptation planning and 
management efforts by Federal natural resources agencies, those 
that manage nearly 30 percent of land in the United States, as 
well as our marine resources, like fisheries, and our exclusive 
economic zone that extends 200 miles from our shore.
    The Administration is already doing what it can on this 
front. The President's climate action plan includes steps to 
prepare us for the effects of climate change. And he further 
focused the Administration's adaptation efforts in an executive 
order he issued in November. John Holdren, the Director of the 
White House Office of Science and Technology Policy, is here to 
update us on these efforts, as well as the science behind what 
we are seeing and why strategic adaptation planning is so 
necessary in the face of climate change.
    The executive order builds on the first national fish, 
wildlife and plants adaptation strategy which Congress 
requested in 2009 and the Administration released last March. I 
look forward to hearing from Fish and Wildlife Service Director 
Dan Ashe about implementation plans for the strategy as well as 
other adaptation measures being championed by the Service.
    I would also like to thank the witnesses on our second 
panel who will provide much-needed perspective on what is 
happening outside of Washington. In particular, I want to 
recognize Chris Brown, President of the Rhode Island Commercial 
Fishermen's Association. Chris's livelihood depends on the 
oceans. Sadly, our oceans are becoming ground zero for damage 
from carbon pollution. The oceans are warming. That is a 
measurement, not a theory. Sea level is rising. That is another 
measurement. Oceans are becoming more acidic. Again, a 
measurement, not a theory.
    These changes are already affecting marine life. Some 
species are moving northward and southward toward the colder 
water of the poles, as quickly as 10 to 45 miles per decade. 
Events that are timed for spring or summer, like egg-laying or 
migration, are happening several days earlier each decade. More 
acidic waters caused a 70 to 80 percent loss of oyster larvae 
at a hatchery in Oregon and crashed wildstocks in Washington 
State.
    In Rhode Island, Narragansett Bay has seen an overall 
increase in annual water temperature of between 3 and 4 degrees 
since 1960. According to Christopher Deacutis, the previous 
chief scientist of the Narragansett Bay estuary program, ``Fish 
species in Narragansett Bay are shifting, seemingly in step 
with increased temperatures.'` UI Professor Jeremy Colley and 
others have shown that coldwater marine species such as the 
winter flounder, which used to be the dominant fish species in 
the Bay, are radically decreasing in numbers. Meanwhile, warmer 
water species such as summer flounder, scup and butterfish seem 
to be increasing. As fish species shift, either farther north 
or farther offshore, our fisheries management strategies are 
going to have to keep up and so is our science. We need to 
understand how environmental conditions are changing to better 
predict how species will react and how to manage them for the 
benefit of our fishermen.
    I am grateful that Chris is here to remind us that in 
addition to our national parks, forests and land species, our 
oceans and coasts and fisheries and the economies they support 
are also jeopardized by climate change. We must prepare for the 
changes that are coming and as well do everything we can to 
prevent future changes from carbon pollution.
    I look forward to today's discussion, and before we turn to 
the witnesses, let me turn to our distinguished ranking member.
    [The prepared statement of Senator Whitehouse follows:]

           Statement of Hon. Sheldon Whitehouse, U.S Senator 
                     from the State of Rhode Island

    Today the Committee will discuss the benefits our American 
natural resources provide and the need for adaptation planning 
to protect these American resources in the face of climate 
change.
    I have been proud to work on this issue in recent years 
with former Senator Max Baucus, and while he is no longer here 
in the Senate, I'm glad the Committee is meeting today to carry 
on his important work. From the beaches of Rhode Island to the 
glaciers of Montana, nature's bounty provide us with life's 
essentials: clean air and water, crops and timber, recreation 
and our outdoor heritage. Climate change threatens to rob us of 
these essentials.
    I've gone to the Senate floor now nearly 60 times to plead 
with my colleagues to wake up to the facts of carbon pollution. 
The fact of the matter is that even if we stop carbon pollution 
today, we still face decades of changes in air and ocean 
temperatures and extreme weather. So while we must take up the 
challenge to reduce greenhouse gas emissions, we must also 
begin to adapt, and secure our natural resources against the 
changes we cannot avoid.
    Status quo management and planning will not be good enough. 
A GAO report on the topic, citing several sources, says, 
``natural resource management has historically been based on 
the idea of maintaining current environmental conditions or 
restoring species and habitats to some desired former 
condition. As the climate continues to change, this approach 
will become increasingly more difficult if not impossible to 
maintain. ''
    But adaptation--to warming air and ocean temperatures, to 
catastrophic weather events, even to full ecosystem shifts--
isn't easy work, and the Federal, State and local leaders we 
entrust to protect our property and our ecosystems are often 
constrained by outdated laws and regulations. That's why 
Senator Baucus and I introduced the Safeguarding America's 
Future and the Environment Act. The SAFE Act, for short, puts 
all climate adaptation tools and approaches on the table, and 
would engage local stakeholders as well.
    As a first step, the SAFE Act requires adaptation planning 
and management efforts by Federal natural resource agencies. 
The Federal Government manages nearly 30 percent of land in the 
United States as well as marine resources, like fisheries, in 
our exclusive economic zone that extends 200 miles from our 
shore.
    The Administration is already doing what it can on this 
front. The President's Climate Action Plan includes steps to 
prepare us for the effects of climate change and he further 
focused the Administration's adaptation efforts in an Executive 
Order he issued in November. John Holdren, the Director of the 
White House Office of Science and Technology Policy, is here to 
update us on these efforts, as well as the science behind what 
we're seeing and why strategic adaptation planning is so 
necessary in the face of climate change.
    The Executive Order builds on the first National Fish, 
Wildlife and Plants Adaptation Strategy, which Congress 
requested in 2009 and the Administration released last March. I 
look forward to hearing from Fish and Wildlife Service Director 
Dan Ashe about implementation plans for the Strategy as well as 
other adaptation measures being championed by the Service.
    I'd also like to thank the witnesses on our second panel, 
who will provide a much needed perspective on what is happening 
outside of Washington. I especially want to recognize Chris 
Brown, President of the Rhode Island Commercial Fishermen's 
Association.
    Chris's livelihood depends on the oceans. Sadly, our oceans 
are becoming ground zero for damage from carbon pollution. The 
oceans are warming. That's a measurement, not a theory. Sea 
level is rising. That's another measurement. Oceans are 
becoming more acidic. Again, a measurement, not a theory.
    These changes are already affecting marine life. Some 
species are moving toward the colder water of the North and 
South Poles, as quickly as 10 to 45 miles per decade. Events 
that are timed for spring and summer, like egg laying or 
migration, are happening about 4 days earlier per decade. More 
acidic waters caused a 70-80 percent loss of oyster larvae at a 
hatchery in Oregon and crashed wild stocks in Washington State.
    In Rhode Island, Narragansett Bay has seen an overall 
increase in annual water temperature of between 3 and 4 degrees 
since 1960. According to Christopher Deacutis, the previous 
Chief Scientist of the Narragansett Bay Estuary Program:
    ``Fish species in Narragansett Bay are . . . shifting, 
seemingly in step with increased temperatures. [URI Professor] 
Jeremy Collie and others have shown that cold-water marine 
species such as the winter flounder, which used to be the 
dominant fish species in the bay, are radically decreasing in 
numbers. Meanwhile, warmer-water species such as summer 
flounder, scup and butterfish seem to be increasing.''
    As fish species shift, either farther north or farther 
offshore, our management strategies are going to have to keep 
up and so is our science. We need to understand how 
environmental conditions are changing to better predict how 
species will react and how to manage them for the benefit of 
our fishermen.
    I'm grateful that Chris is here to remind us that in 
addition to our national parks, forests, and land species, our 
oceans and coasts and the economies they support are also 
jeopardized by climate change. We must prepare for the changes 
that are coming and do everything we can to prevent future 
changes from carbon pollution.
    I look forward to today's discussion.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. I don't agree, but 
let's----
    Senator Whitehouse. You weren't expected to.
    [Laughter.]
    Senator Inhofe. Last month during the hearing on the 
climate action plan, I spent the bulk of my time raising 
concerns about the Environmental Protection Agency's rollout of 
its greenhouse gas regulations, which I found to be alarmingly 
hypocritical. On the one hand, the Administration says these 
regulations are urgently needed. On the other hand, the EPA 
intentionally delayed the rule's publication to prevent it from 
being implemented prior to the mid-term elections this fall. 
This is kind of reminiscent of the last elections that we had.
    Does anyone other than me care that fewer, and I 
understand, and I say to my good friend, and we are good 
friends, that while I don't agree on this, neither do the 
majority of the people in the U.S. Senate or in the House. 
Because they can't get more than 35 votes, is all you can get 
today, a bill to legislatively allow the EPA to regulate 
greenhouse gases. We know this is true, we have been there 
before. So now they are trying to do what they couldn't do with 
legislation through regulation. And the cost of these is pretty 
alarming.
    Now, what is more concerning is that there is similar 
behavior taking place across the government, including the Fish 
and Wildlife Service, the bald eagle, the Golden Eagle 
Protection Act passed in 1940, and it protects our national 
bird from hunting, poaching and other activities that could 
harm it. The Act states that without a permit, it is illegal to 
take, possess or sell or purchase any bald eagle. Wind 
turbines, with their massive blades, kill an estimated 1.4 
million birds a year as the turbines spin through the air. Some 
of these casualties have been protected birds like the bald 
eagle.
    Federal law stipulates that the illegal killing of bald 
eagles be punished with fines and/or jail sentences. But this 
won't be the case for the wind industry. On December 6th of 
2013, the Administration said that it would begin granting 
waivers to wind farm operators so that they would be able to 
kill bald eagles for a period of 30 years without fear of any 
retribution. That is pretty shocking.
    While I am not particularly bothered by the fact that 
permits are being offered, I am extremely concerned by the 
systematic practices of this Administration to use its powers 
to help its friends in renewable energy, while punishing its 
enemies developing traditional fossil fuels. Other species 
receive similar protections to the bald eagle under the 
Endangered Species Act. One covered species is the American 
burrowing beetle, many of which are located in eastern 
Oklahoma. For the past 2 years, eastern Oklahoma has been 
without a general conservation plan making it illegal to engage 
in nearly all activities that could disturb the ABB.
    Despite repeated attempts by my office, the State of 
Oklahoma and dozens of private entities, we have not managed to 
get anything out of the Service. This is a big deal, because 
many companies are planning to build new neighborhoods, develop 
new oil and gas wells and construct new pipelines, but because 
of the GCP, its effect is not final, they can't do it. When 
this is compared to the new permits the Service may offer the 
wind industry, I can't think but that this is a startling 
double standard.
    Justice is supposed to be blind. Treatment of different 
industries is supposed to be equal under the law, including the 
energy industry. And while the President says that he has an 
all of the above energy strategy, evidence shows whether the 
EPA or the Fish and Wildlife Service, that its real strategy is 
focused primarily on restricting traditional fossil fuels while 
assisting the development of renewables.
    This favoritism also extends to the way the government 
thinks about the adaptability of our Nation to changing 
circumstances. Renewable energy requires massive amounts of 
land to make very small quantities of power. But the government 
seems to ignore this fact. One recently constructed solar farm 
takes up five square miles but only makes enough electricity to 
power 140,000 homes. By contrast, a typical natural gas powered 
plant may in total take up only half of a square mile, but can 
generate enough power to support over a million homes.
    So despite the true impacts of renewables on the 
environment, the Administration continues to turn a blind eye 
to them. It is my hope that during this hearing we will be able 
to uncover some of the facts and provide a better framework for 
comparing the relative benefits and costs of the different 
forms of energy.
    Again, I would just repeat what I said earlier, ever since 
the Kyoto Treaty, I say to our Chairman, we have gone through 
this thing. I can recall the first bill to be introduced was 
not really a Democrat bill, it was the McCain-Lieberman bill. 
It was soundly defeated, and this was 12 years ago. There have 
been several others, one by a new member of this committee that 
I am sure will be here, my very good friend from Massachusetts. 
And they have not been able to get enough votes to even get a 
third of the vote out of the Senate and less than a third in 
the House.
    So there is something wrong with the system, I say to my 
chairman, that we are able to go ahead and do through 
regulation what they have tried over and over again for 12 
years to get through legislation unsuccessfully.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Mr. Chairman, thank you for holding this hearing today. It 
is important for us to conduct oversight on all aspects of the 
President's Climate Action Plan to uncover the impact it will 
have on our Nation.
    Last month, during a hearing on the Climate Action Plan, I 
spent the bulk of my time raising concerns with the 
Environmental Protection Agency's rollout of its greenhouse gas 
regulations, which I found to be alarmingly hypocritical. On 
the one hand, the Administration says these regulations are 
urgently needed; on the other, the EPA intentionally delayed 
the rule's publication to prevent it from being implemented 
prior to the midterm elections this fall.
    And does anyone other than me care that fewer than 35 
percent of the members of either the House or the Senate would 
even vote in favor of legislation granting EPA the authority to 
regulate greenhouse gases? And yet we continue to spend 
countless time debating the issue.
    This is alarming, but what's more concerning is that I see 
similar behavior taking place across the government, including 
at the Fish and Wildlife Service.
    The Bald Eagle and Golden Eagle Protection Act, passed in 
1940, protects our national bird from hunting, poaching, and 
other activities that could harm it. The act states that 
without a permit, it is illegal to ``take, possess, sell, [or] 
purchase'' any bald eagle.
    Wind turbines, with their massive blades, kill an estimated 
1.4 million birds per year as their turbines spin through the 
air. Some of these casualties have been protected birds like 
the bald eagle.
    Federal law stipulates that the illegal killing of bald 
eagles be punished with fines and/or jail sentences, but this 
won't be the case for the wind industry. On December 6, 2013, 
the Administration said that it would begin granting waivers to 
wind farm operators so that they would be able to kill bald 
eagles for a period of 30 years without fear of any 
retribution.
    While I'm not particularly bothered by the fact that the 
permits are being offered, I am extremely concerned by the 
systematic practices of this Administration to use its powers 
to help its friends in renewable energy while punishing its 
enemies developing traditional fossil fuels.
    Other species receive similar protections to the Bald Eagle 
under the Endangered Species Act. One covered species is the 
American Burying Beetle (ABB), many of which are located in 
Eastern Oklahoma.
    For the past 2 years, Eastern Oklahoma has been without a 
General Conservation Plan, making it illegal to engage in 
nearly all activities that could disturb the ABB.
    Despite repeated attempts by my office, the State of 
Oklahoma, and dozens of private entities, we have not managed 
to get anything out of the Service. This is a big deal because 
many companies are planning to build new neighborhoods, develop 
new oil and gas wells, and construct new pipelines, but because 
the GCP is not final, they cannot do it.
    When this is compared to the new permits the Service may 
offer wind industry, I can't help but think this is a startling 
double standard.
    Justice is supposed to be blind. Treatment of different 
industries is supposed to be equal under the law, including the 
energy industry. And while the President says that he has an 
all-of-the-above energy strategy, evidence shows--whether at 
EPA or the Fish and Wildlife Service--that his real strategy is 
focused primarily on restricting traditional fossil fuels while 
assisting the development of renewables.
    This favoritism also extends to the way the government 
thinks about the adaptability of our nation to changing 
circumstances. Renewable energy requires massive amounts of 
land to make very small quantities of power, but the government 
seems to ignore this fact. One recently constructed solar farm 
takes up 5 square miles but only makes enough electricity to 
power 140,000 homes. By contrast, a typical natural gas power 
plant may, in total, take up only a half square mile but can 
generate enough power to support over one million homes.
    Despite the true impacts of renewables on the environment, 
the Administration continues to turn a blind eye to them. It's 
my hope that during this hearing, we'll be able to uncover some 
of these facts and provide a better framework for comparing the 
relative benefits and costs of different forms of energy.

    Senator Whitehouse. Always glad to hear from the ranking 
member. Some would say that the problem is the problem with 
Congress. That is one that elections will cure, with any luck.
    Senator Inhofe. I do agree with that.
    Senator Whitehouse. Now we have Dr. Holdren, who is the 
Assistant to the President for Science and Technology and the 
Director of the White House Office of Science and Technology 
Policy. He is also the co-chair of the President's Council of 
Advisors on Science and Technology.
    He has served previously as a member of the President's 
Council of Advisors on Science and Technology during the 
Clinton administration and also chaired studies for President 
Clinton on preventing theft of nuclear materials, disposition 
of surplus weapon plutonium, the prospects of fusion energy, 
U.S. energy R&D strategy and international cooperation on 
energy technology innovation. He holds advanced degrees in 
aerospace engineering and theoretical plasma physics--hurts my 
head just to say that--from MIT and Stanford.
    Dr. Holdren, welcome and thank you. Then we will turn to 
Mr. Ashe.

 STATEMENT OF HON. JOHN P. HOLDREN, PH.D., DIRECTOR, OFFICE OF 
    SCIENCE AND TECHNOLOGY POLICY, EXECUTIVE OFFICE OF THE 
                           PRESIDENT

    Mr. Holdren. Thank you, Chairman Whitehouse, Ranking Member 
Inhofe. I am certainly pleased to be here today to discuss with 
you the Federal Government's ongoing work to inform and support 
climate change preparedness and resilience in communities 
across America.
    Few environmental factors affect our Nation's economy, 
communities and ecosystems more than weather and climate. 
Severe weather and climate change poses important risks to 
human health, safety, livelihoods and property. In 2012 alone, 
the National Oceanic and Atmospheric Administration's National 
Climate Data Center identified 11 weather-related events in the 
United States that each resulted in losses exceeding a billion 
dollars, totaling $110 billion in damages and 377 deaths across 
the entire year.
    And we are all acutely aware that the severe drought 
currently afflicting California and other areas of the 
southwest is having important impacts on agriculture, ranching, 
water resource management and other critical sectors of the 
region's economy.
    Scientifically, one cannot say that any single episode of 
extreme weather, no storm, no flood, no drought, was caused by 
climate change. What scientists can say is that global climate 
has been so extensively impacted by the human-caused buildup of 
greenhouse gases that many such events are being influenced by 
climate change. Any effective effort to boost climate 
preparedness will require anticipating and planning for changes 
in the frequency, intensity and locations of some kinds of 
extreme weather and climate events as well as for other 
changes, such as the continuing rise of sea level.
    Strengthening America's climate resilience also requires a 
full understanding of how climate change is affecting the 
health of our environment and natural resources and what can be 
done to plan and prepared for such changes. As you pointed out 
in your opening statement, Senator Whitehouse, ecosystems 
provide a range of important benefits to people, including 
protection of coastal areas, clean drinking water and 
opportunities for commerce, tourism and recreation.
    Some of the Nation's ecosystems have been depleted or 
degraded due to non-climatic factors, pollution, over-
harvesting, changes in land use, that have reduced the ability 
of these systems to provide benefits to people. But these 
benefits are further threatened by climate change, the impacts 
of which include widespread changes in the Nation's habitats 
and ecosystems. Certain commercial fish species are moving 
northward along the east coast as waters warm. The timing of 
some biological events, such as flowering and migration, is 
shifting in regions across the Country. Decreases in rainfall 
and snow pack in the west are reducing the health and 
productivity of forests and agricultural systems alike.
    The President's climate action plan, released last June, 
provides a roadmap for Federal action to meet the pressing 
challenges that come with climate change, including concrete 
actions that can be taken to boost the resilience and 
preparedness of American communities. These actions build on 
work already completed or underway, including a number of 
Federal interagency climate adaptation strategies related to 
freshwater resources, fish, wildlife and plants and marine 
resources.
    The plan also recognizes the need to ensure that the best 
science, research, data, tools and technologies are brought to 
bear in implementing all climate preparedness and resilience 
efforts. The White House Office of Science and Technology 
Policy is working with partners within and outside government 
to meet this challenge and to meet the growing demand among 
decisionmakers on the ground for accessible and actionable 
information to inform their efforts to plan and prepare for 
climate change.
    I thank the committee for its support and interest in this 
issue, and I look forward to continuing to work with you. I 
will be pleased to take any questions that you may have.
    [The prepared statement of Dr. Holdren follows:]
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  
  
    
    Senator Whitehouse. Thank you, Dr. Holdren. And as is 
custom in this committee, your longer statement that was 
provided will be put into the record. We appreciate that you 
were able to summarize in the appropriate amount of time.
    Mr. Ashe, welcome. Actually, let me do my proper 
introduction to you. Daniel Ashe was confirmed on June 30th, 
2011 as the 16th Director of the U.S. Fish and Wildlife 
Service. Prior to his appointment, Mr. Ashe served as the Fish 
and Wildlife Service Deputy Director for Policy, beginning in 
2009.
    Mr. Ashe is a career member of the Fish and Wildlife 
Service, having served in a great variety of capacities, and 
formerly was a professional staff member of the former House 
Committee on Merchant Marine and Fisheries. He is also a 
legacy, his father served in the Fish and Wildlife Service for 
37 years. Mr. Ashe brings to us a B.S. in biological science 
degree from Florida State University and a masters in marine 
affairs from the University of Washington.
    Please proceed, Mr. Ashe.

 STATEMENT OF THE HON. DANIEL M. ASHE, DIRECTOR, UNITED STATES 
                   FISH AND WILDLIFE SERVICE

    Mr. Ashe. Thank you, Mr. Chairman, Senator Inhofe. It is a 
pleasure to be here again.
    If we think about this issue of adaptation and response to 
climate change, I think what I would say is, climate change 
affects every aspect of the enterprise of wildlife 
conservation. But it is not just climate change, it is climate 
change on top of and turbo-charging the cumulative effects of 
other factors driving wildlife populations, things like habitat 
loss and fragmentation, wildlife diseases like white nose 
syndrome in bats and Kitrick fungus in amphibians, species 
invasions, wildfire. So it is climate change on top of all of 
these things. We see these effects, these cumulative, 
accelerating effects, everywhere we look.
    Chairman Whitehouse, in your region of the Country, 
consider Atlantic salmon conservation. For nearly 40 years, the 
U.S. Fish and Wildlife Service has worked with many partners, 
State, tribal, local, to try to achieve Atlantic salmon 
conservation in the Connecticut River. We have put forth great 
effort with great partnerships. But what we find is now with 
the accelerating effects of climate change, driving warming of 
the water and changing of the chemical and physical 
characteristics of the Connecticut River, that that is acting 
synergistically with other factors, like the presence of 
predators that never existed in the Connecticut River, like 
smallmouth bass and human-based pollution of the water, and 
barriers to migration like dams and other barriers in the 
Connecticut River and tributaries.
    So climate change now acting cumulatively and 
synergistically with those effects are telling us that we can't 
achieve Atlantic salmon conservation in the Connecticut River. 
So if we are going to achieve that, we need to look elsewhere 
within the historic range of the species.
    Mr. Inhofe, as you know, we are seeing the same things in 
the range of the Lesser prairie chicken. Certainly habitat loss 
and alteration changes are being accelerated and exacerbated by 
changes in soil moisture and other things that seem to be 
driving the Lesser prairie chicken toward potential extinction. 
We have made great efforts working with the State to put in 
place a range-wide plan, working on a candidate conservation 
agreement to drive conservation, habitat conservation for this 
species. But the one missing ingredient there is rain, and will 
we get rain, and will the presence or absence of rain, is that 
a phenomenon of weather, or is that a phenomenon of climate. 
Does it really matter. What we need to do is, we need to better 
understand what is driving the fate of these creatures that we 
are responsible for.
    And as I was thinking about this, I am going to borrow from 
a book called The Legacy, by David Suzuki. He talks about the 
human enterprise and he talks about the fact that we are not an 
impressive species in size and speed and strength or sensory 
alacrity. But the key to our success as a species is this two-
kilogram organ encased in our skull. The human brain has more 
than compensated for our lack of physical or sensory abilities. 
We observe, we learn, we remember. We recognize causal 
relationships and we come up with innovative solutions to 
problems.
    So throughout history, drawing on our experience and 
knowledge, we have dreamed of our place in the world and 
imagined the future into being. By inventing a future, we could 
look ahead, we could see where dangers and opportunities lay 
and recognized that our actions would have consequence in that 
future. Foresight gave us a leg up and brought us into a 
position of dominance in the world. I think now we are at that 
position of time where foresight is especially important. As we 
look at all of these things that are influencing not only the 
future of the wildlife that is the mission and responsibility 
of my agency, but our life, it seems like it is an especially 
important time for us to exercise that special human ingredient 
and characteristic of foresight.
    Thank you.
    [The prepared statement of Mr. Ashe follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Senator Whitehouse. Thank you, Director Ashe.
    How would the capacity of our human brain exercise its God-
given quality of foresight be influenced in your world, in 
protecting our natural resources, if we fail to acknowledge the 
reality of climate change?
    Mr. Ashe. It cannot be, if we do not acknowledge the 
reality of climate change. I think in what we are doing in the 
Fish and Wildlife Service, you acknowledged, one, the National 
Fish, Wildlife and Plants Climate Change Adaptation Strategy. 
We are working with our State partners, with our tribal 
partners, with local partners to think about the future and to 
plan for that. Some of the steps are simple, that we need to 
learn more, we need to understand more about the effect of a 
changing climate on populations. We need to be able to 
anticipate more. We are developing a national and international 
network of landscape conservation cooperatives, a partner-
driven, partner-managed scientific enterprise. We are working 
to conserve and connect large landscapes, to build a 
representative, resilient and redundant conservation network. 
And we are doing that not just with environmental community 
partners like the Nature Conservancy or Defenders of Wildlife, 
we are doing that with energy industry partners. So simple 
common sense steps to make a difference.
    Senator Whitehouse. As was the case with Mr. Holdren, 
Director Ashe, your full statement will be made a matter of 
record here. You State in it, according to the U.S. Global 
Change Research Program, significant changes in the U.S. 
climate over the past 50 years have occurred, including 
increases in average temperatures, shifts in rainfall and storm 
patterns, increases in wildfires, more frequent water 
shortages, rising sea levels, loss of arctic sea ice, ocean 
acidification, changing precipitation patterns and coastal 
flooding and erosion.
    Is that a matter of theory or is that at this point a 
matter of observation?
    Mr. Ashe. Those are all matters of observation, sir.
    Senator Whitehouse. Dr. Holdren, the President recently 
announced plans for a billion dollar climate resilience fund 
that is meant to help communities deal with harms from extreme 
events due to climate change. Can you talk a little bit about 
how these resilience measures, completed before or in the 
recovery phase of a natural disaster, actually save money in 
the future? We have lived through this question with Sandy in 
New England and I would like to have your comment on that.
    Mr. Holdren. First of all, we know of course that events 
like Sandy are immensely expensive. We also know from both 
experience and analysis that prevention of damage is almost 
always considerably less expensive than rebuilding after the 
damage or otherwise trying to repair it.
    In the natural resource context that is the particular 
focus of this hearing, we know that community resilience, the 
resilience of human communities, depends in many respects on 
ecosystem resilience. The declines in benefits provided by 
ecosystems, including as a result of climate change, have 
direct and indirect impacts on livelihoods and the economy of 
communities. Loss of coral reefs due to bleaching and disease 
means losses of revenue for the tourism industry as well as 
declines in reef-dependent fish species that have commercial 
value.
    Again, almost invariably, when you count up the cost of 
allowing this damage to continue unabated versus the cost of 
intervening to reduce the damage or increase resilience to 
protect against it, you find that these investments are a 
bargain. That is why the President has proposed his billion 
dollar climate resilience fund. It will be a bargain.
    Senator Whitehouse. Thank you very much.
    I will yield back my time to our distinguished ranking 
member.
    Senator Inhofe. Thank you, Mr. Chairman.
    Mr. Ashe, I said in my opening statement I have been 
concerned that the Service has been giving preferential 
treatment under the Endangered Species Act to renewable energy 
producers when compared to those of traditional fuels. I know 
we have talked about this before. But this is particularly 
problematic in Oklahoma with the American burrowing beetle. You 
and I both know that the oil and gas industry is the source of 
most economic activity there. But because there isn't a general 
conservation plan in place, most of this new activity has been 
curtailed. It is my understanding that a new general 
conservation plan is under development.
    You are a good friend of Richard Hatcher in our State of 
Oklahoma and you have visited extensively with each other. He 
is our director of the Oklahoma Department of Wildlife 
Conservation. And he asked if it would be possible to allow 
modified conservation practices until a new GCP is completed, 
which is expected to be later this year. What would be your 
answer to that? Would that be possible?
    Mr. Ashe. Thank you, Mr. Inhofe. Mr. Hatcher is a great 
American and a great friend. I think we are working on an 
interim plan for the American burrowing beetle. In fact, people 
are meeting today, I am told, in Oklahoma with the State and 
with representatives from the energy industry to try to find a 
solution while we work on the larger general conservation plan.
    So Senator, we are committed to trying to find a solution. 
It is surprisingly vexing, I have to admit. But we are working 
to try to find an interim solution, and conversations are 
literally going on as we speak. I am hopeful that by the spring 
we will have identified a solution.
    Senator Inhofe. The question, though, that he asked was, 
would it be possible to go ahead and address this thing, 
possible to allow maybe a modified conservation practices until 
the new plan is completed. I think as you just now said, it is 
expected to be completed soon. It is very close right now. So 
in the interim period, that is the concern he was asking about.
    Mr. Ashe. I would have to talk to Richard specifically 
about his ideas. I have not had a chance to do that.
    Senator Inhofe. OK, that would be good. That is fair 
enough, you would do that.
    I think most of our conversation has been around the Lesser 
prairie chicken. This is something that has been of great 
concern in the State of Oklahoma and about a four-State area, 
New Mexico, Kansas and Texas and Oklahoma. From what I 
understand, we are in the very final stages of giving final 
approval to the oil and gas CCAA and acres are being enrolled 
in the State-based range-wide plan.
    I recently wrote you a letter asking if you would allow 
enrollment in the CCAAs beyond a listing decision. This is 
important because we are about a month away from the deadline. 
It often takes several weeks to complete the enrollment 
process. Enrollment can't be done until the CCAA is finalized. 
Would you allow a post-position enrollment?
    Mr. Ashe. I cannot do that. Our expectation, Senator, is 
that the Candidate Conservation agreement will be completed 
this week, by Friday of this week. So we will have a completed 
instrument and sign-ups can begin.
    If we were to list the Lesser prairie chicken, then it 
would no longer be a candidate. So it would not be appropriate 
for people to sign----
    Senator Inhofe. So you are saying you cannot do it, even if 
you are willing to do that?
    Mr. Ashe. We cannot do it.
    Senator Inhofe. If we were to find that you can do it, then 
would you reconsider that? Because we are right down now to the 
deadline. The time is on us now.
    By the way, I have to say this, for this committee, how 
much I appreciate the fact that you in your confirmation made 
an agreement to come out, talk to our people about the 
cooperative plans that we have, the partnership plans that we 
have in Oklahoma.
    Mr. Ashe. Thank you, sir.
    Senator Inhofe. You did it not only once, but twice. So I 
thank you very much for that.
    So far to my understanding, several hundred thousand acres 
have been enrolled in the RWP, 4 million are in the queue. And 
between 5 million and 6 six million acres will be enrolled in 
the CCAA in the first week following its approval. Are you 
encouraged by what you have seen, are seeing from the 
conservation standpoint with the range-wide plan and the CCAAs?
    Mr. Ashe. I am greatly encouraged, sir.
    Senator Inhofe. Now, there isn' time, my time has expired, 
but let me just take a little bit, because there is a new 
critter coming I wasn't even familiar with, and that of course 
is the northern long-eared bat. I figured beetles and Lesser 
prairie chickens would be enough, and now we are concerned with 
this. Apparently this affects some 39 States.
    It has come to our attention that the Service issued 
guidance requiring Section 7 conferencing reviews for the 
projects proposed to take place in the species range which is, 
as I said, affects now 39 States, is that right? About 39 
States. This has occurred despite the fact that the species has 
only been proposed as an endangered species. That determination 
has not yet been made. It is also my understanding that these 
Section 7 reviews are only allowed prior to a listing when a 
project is going to jeopardize the existence of the species 
across the entire range. Can you explain to me why the Service 
is doing this, and isn't it getting ahead of itself? By the 
way, of the 39 States, everyone at this table here is one of 
the 39 States.
    Mr. Ashe. Senator, I will have to get back to you on the 
details related to the long-eared bat. I am not intimately 
familiar. I would say we cannot, or we do not and cannot 
require consultation prior to a listing. Consultation is a 
formal, statutorily required commitment on the part of the 
Federal agency once a species is listed.
    We sometimes do what we call conferencing on a candidate 
species, which is a voluntary process to provide advice and 
guidance. With regard to the lesser prairie chicken, for 
instance, we have done a conference with the Natural Resource 
Conservation Service, which has allowed us to provide certainty 
to landowners that sign up and implement best conservation 
practices for lesser prairie chicken. We have done the same 
thing for sage grouse. So sometimes we do conferencing 
informally to encourage investment in conservation before a 
species is listed, but we can't require consultation.
    Senator Inhofe. Yes. I know my time is expired, but when 
you talk about the burrowing beetle and the lesser prairie 
chicken, it really is only in a smaller number of States. This 
apparently affects a large number of States.
    I also want to take advantage of the opportunity to welcome 
my good friend Senator Markey from Massachusetts. He and I have 
gone around and around in debates for the last 12 years. We 
have always maintained a very good relationship and friendship. 
I appreciate your adding your expertise to this committee, 
Senator Markey.
    Senator Whitehouse. And indeed, it is Senator Markey's 
turn, so I recognize him for his first appearance in this 
committee. We will miss Senator Baucus, but he has certainly 
been replaced by a very prominent figure in the environmental 
cause. I am delighted to have Ed Markey with us. The floor is 
yours, Senator.
    Senator Markey. Thank you, Mr. Chairman, very much. I am 
looking forward to learning a lot about these issues. I am 
familiar with many of them, after 37 years on these committees. 
Senator Inhofe and I, we started back in 1987 having these 
conversations, when we joined the House of Representatives. So 
we are 27 years now into our conversation.
    Senator Inhofe. But neither one of us has moved yet.
    Senator Markey. My father always said that when two people 
agree upon absolutely everything, you don't need one of those 
people. So we are both needed here. We are needed for this 
conversation. We have to just continue to have it, and I thank 
you, my friend, Jim Inhofe, for all these years.
    Chairman Whitehouse, thank you for all your leadership on 
the issues. I am looking forward to working with you and 
Chairman Boxer and all the members of the committee to work on 
these issues that are so central to the health of our economy 
and the health of the citizens of our Nation, whether it is 
rebuilding roads or reducing the impact of what comes out of 
the tailpipes of the cars that drive on them, the work of this 
committee is crucial to driving the United States economy.
    Today's hearing is examining one of the major risks to 
America's environmental and economic health climate change. It 
is having tangible impacts in Massachusetts right now. My State 
loses land to rising sea levels every year. Our iconic cod have 
been moving north as ocean temperatures warm and are 
contributing to the extreme economic challenges facing 
Massachusetts fishermen and the coastal communities that depend 
upon them.
    Thankfully we already have many of the tools needed to 
prepare for the impact of climate change and reduce the risk in 
the future. Building upon natural coastal defenses will not 
only help protect infrastructure on land but also provide 
benefits for the fishing and tourism industries. Increasing the 
efficiency of our energy and water use can help respond to 
climate change and lower utility bills for our homeowners at 
the same time. Addressing climate change means capitalizing on 
the trillion dollar clean energy opportunity that exists. 
Cleaning up and fortifying our aging, polluting energy 
infrastructure could be the job creation engine of our time. 
Eighty thousand Americans are already employed in the wind 
sector in our Country. That is about the same number of people 
that mine coal in our Country today.
    Solar is one of the fastest-growing sectors of our economy, 
142,000 Americans are employee in solar, 24,000 new solar jobs 
added to our economy last year. These are high-wage jobs, $23 
an hour on average. These are International Brotherhood of 
Electrical Workers jobs, these are roofer jobs, these are jobs 
that our soldiers are learning how to do when they return home. 
It has been clear for years that we need to invest in America's 
resilience to climate change and our clean energy economy. 
Building climate-smart infrastructure and more wind and solar 
capacity will create jobs that are good for saving creation at 
the same time.
    Now, Dr. Holdren, let's start with a basic analogy. If the 
current State of scientific understanding of human beings' 
influence on climate change is like a jigsaw puzzle, are most 
of the pieces still in the box or have scientists put enough 
together to establish what the picture is?
    Mr. Holdren. I would say that most of the major pieces are 
in place. We have an increasingly clear picture of how human 
activities are influencing the global climate. That picture has 
been reflected in not only the reports every several years of 
the Intergovernmental Panel on Climate Change, contributed to 
by hundreds of climate scientists from around the world, but 
regular reports by our National Academies of Science, the 
academies of science of every other major country that has an 
academy of science. And the basic picture is that we know 
without question that the climate of the earth is changing in 
ways that stand out sharply against the backdrop of natural 
variations that have operated over millennia. We know with very 
high confidence that the principal driver of these recent 
changes has been human activities, above all, the emission of 
heat-trapping substances, carbon dioxide, methane, nitrous 
oxide, black soot and others.
    And we know with high confidence that those changes in 
climate are already causing harm to human well-being in many 
forms and many places. A number of them have been referred to 
already. There are uncertainties surrounding the quantitative 
details in many cases. Climate scientists are well aware of the 
importance of measuring and quantifying uncertainty and working 
to reduce it over time. But the uncertainties and the details 
that are not yet well understood do not obscure, do not 
implicate those fundamental understandings which I just 
summarized.
    Of course, we also work hard to try to create where we are 
headed as well as where we have been. And that is harder. As 
often has been said, predictions are difficult, particularly 
about the future.
    Senator Markey. Yogi Berra.
    Mr. Holdren. Yogi Berra. The uncertainties are greater 
looking forward than in trying to match our understanding with 
what has happened in the past. But we can have high confidence 
that as long as the buildup of greenhouses gases continues that 
the kinds of disruption of global climate that we have seen 
already will only grow. And the dimensions of the damage to 
human well-being associated with that will grow apace.
    Senator Markey. And I agree with you, the impacts are going 
go become more severe, the solutions are going to be more 
costly. We have to basically accept the fact that the pieces of 
the puzzle are in place.
    I thank you, Mr. Chairman.
    Senator Whitehouse. Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman. I would just ask 
unanimous consent that my opening statement be in the record.
    Senator Whitehouse. Without objection.
    Senator Vitter. Thank you. And thank you, gentlemen, for 
being here, and for your work.
    Director Ashe, I wanted to ask you, is your agency 
currently engaged in consultation related to the EPA's proposed 
New Source Performance Standards for power plants?
    Mr. Ashe. We are engaged in consultation with EPA over 
their proposed rules under Section 316(b), the Clean Water Act, 
yes.
    Senator Vitter. And how would you describe that level of 
consultation? Is it the formal consultation process?
    Mr. Ashe. It is a formal consultation process, yes, sir.
    Senator Vitter. And how extensive has that been 
specifically with regard to New Source Performance Standards 
for power plants?
    Mr. Ashe. I am not certain how to answer your question. I 
am not sure what you are looking for. We have been engaged in 
conversation with EPA.
    Senator Vitter. Let me back up, because I think we are 
talking about two different things. I am talking about New 
Source Performance Standards for power plants, which is 
separate from 316(b). So with regard to endangered species, are 
you engaged in consultation with EPA on New Source Performance 
Standards?
    Mr. Ashe. I do not believe that we are, sir. I will have to 
check and make sure of that, but I do not believe that we are.
    Senator Vitter. If you can check and submit that follow--up 
for the record. Assuming you are correct, and you are not, why 
aren't you? You don't think this has any potential impact on 
endangered species?
    Mr. Ashe. The obligation for consultation, Senator, is on 
the action agency. So EPA would determine whether a 
consultation was necessary and they would provide us with a 
biological assessment, which then would be the basis for a 
biological opinion. So your question is appropriately directed 
to the action agency.
    Senator Vitter. OK, I will direct it to them. But I would 
point out that, for instance, in contrast to that, you are 
definitely involved in Section 7 consultation, for instance, in 
the cooling water intake rule of EPA.
    Mr. Ashe. Correct, 316(b).
    Senator Vitter. Was that initiated by EPA?
    Mr. Ashe. It was.
    Senator Vitter. OK. Now, I would also point out, in that 
scenario, they are considering alternatives, all of which, both 
of which, I think there are two big alternatives, have a 
beneficial impact on endangered species. The discussion is more 
or less how big the beneficial impact is, is that correct?
    Mr. Ashe. No, sir, the discussion is that permit framework 
under Section 316(b) would authorize the use of cooling waters, 
which will have a significant effect on threatened and 
endangered species. So the discussion is about minimizing and 
avoiding those potential impacts and reasonable and prudent 
measures that the EPA and State-delegated programs could take.
    Senator Vitter. The point is, all the alternatives being 
considered are benefits compared to the status quo on 
endangered species.
    Mr. Ashe. That is the purpose of a consultation, is to 
determine and to determine what measures can be taken by EPA 
within its Clean Water Act authorities to avoid and minimize 
the take of endangered species. Probably, sir, since the 1970's 
and the passage of the great environmental laws in the 1970's, 
everything the government does makes life better under the 
Clean Water Act, under the National Forest Management Act, 
under the Clean Air Act. The question is not whether it is one 
increment better. The question is, can EPA within its 
discretion undertake reasonable and prudent measures to improve 
the likelihood that species will be recovered.
    Senator Vitter. Let's go back to that standard with New 
Source Performance Standards. Because New Source Performance 
Standards fundamentally are going to shift power supply sources 
for energy. And to the extent it shifts it, for instance, to 
wind, it takes up a whole lot more land footprint than existing 
sources. Is that not likely to have a major potential impact on 
endangered species?
    Mr. Ashe. Again, sir, it is not for me to determine. It is 
for the action agency to determine in looking at their action. 
You are asking me a completely hypothetical question.
    Senator Vitter. It is not hypothetical. It is going on, and 
you are the top lead actor in the Federal Government who is 
supposed to be concerned about endangered species essentially, 
correct?
    Mr. Ashe. I am concerned about them.
    Senator Vitter. OK. So it is not hypothetical. The question 
is, if we are shifting power supply to things that take up a 
whole lot more land, could that have an impact on endangered 
species?
    Mr. Ashe. It could, theoretically, have an impact on 
endangered species. It could.
    Senator Vitter. Therefore, would it be appropriate in your 
opinion, I understand you don't initiate this legally, but 
therefore, as the person who is charged with thinking about 
endangered species in the Federal Government, would it be 
appropriate to think about that through a formal consultation 
process?
    Mr. Ashe. It is appropriate any time an action agency is 
taking an action for them to consider the effect of their 
action on endangered species. In fact, they have an obligation 
to do so under the Endangered Species Act. But it is their 
call.
    Senator Vitter. It is the legal responsibility, it is their 
call. I am asking the question, are they making the right call 
by not initiating any consultation process with you on the 
matter?
    Mr. Ashe. That is not for me to say, sir.
    Senator Vitter. OK. If I could just wrap up, I think it is 
collectively for us to say, and I think clearly, clearly this 
major rulemaking has a broad potential impact on endangered 
species. I think clearly the lack of any consultation is 
completely inappropriate.
    Senator Whitehouse. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I appreciate the 
opportunity to be with the subcommittee.
    Thank you both for being here today. Dr. Holdren, you are 
the Director of the Office fo Science and Technology Policy, 
called the President's top science advisor, commonly, and it is 
an important office for sure. I would say you feel a 
responsibility to accurately tell the American people the 
challenges and facts dealing with science and technology in 
America.
    Mr. Holdren. That is one of my responsibilities. But my 
first responsibility is giving the President accurate 
information about science and technology, bearing on his 
decisions.
    Senator Sessions. I understand that. On February 14th, 
during a press conference at the White House, about the 
President's trip to California, where he was promoting or 
talking about a new $1 billion drought climate change fund, you 
stated, a, weather practically everywhere is being caused by 
climate change.
    Mr. Holdren. That is not quite what I said, sir, but we 
will come back to that.
    Senator Sessions. You said more than that. Then you said 
``We really understand a number of reasons that global climate 
change is increasing the intensity and frequency and life of 
drought and drought-prone regions.'` Then you talked about 
``the connection between the increasing frequency and intensity 
of droughts and climate change.'` You also asserted that severe 
droughts are ``getting more frequent, they are getting longer, 
they are getting drier,'` and that ``we have seen droughts and 
drought-prone regions becoming more frequent and more severe 
and longer.'`
    Will you stand by that?
    Mr. Holdren. The one part I don't stand by is the initial 
quotation, because I said weather practically everywhere is 
being influenced by climate change, not caused by climate 
change. And I explained that as well in my opening statement 
here. What we have done, we have warmed the surface of the 
earth, we have warmed the surface of the oceans. That is 
influence climate and is influencing weather everywhere.
    Senator Sessions. The weather changes, we all know that, it 
has since time immemorial. But do you stand by your statements 
that droughts are getting more frequent, and getting longer and 
they are getting drier and the other comments I made? And if 
so, cite for us a scientific report or data that supports that.
    Mr. Holdren. I would be happy to do that. My statement was 
that droughts are getting more severe in some regions. That is 
supported by the report of the Intergovernmental Panel on 
Climate Change 2013. Its science basis supported by the 
National Climate Assessment----
    Senator Sessions. No, no, no. What you said, sir, you said, 
and I am quoting here, the first quote I mentioned did mention 
drought-prone regions. But you talked about the connection 
between increasing ``frequency and intensity of drought and 
climate change'` and you asserted that severe droughts are 
``getting more frequent, they are getting longer and they are 
getting drier.'`
    Mr. Holdren. In some regions, and I would be happy to 
provide you the scientific references. There is a long list of 
them.
    Senator Sessions. Well, what about the United States of 
America?
    Mr. Holdren. In the United States of America, droughts are 
getting more severe in the American west and in the Colorado 
River basin. We are experiencing in the Colorado River basin 
what looks like probably the most severe drought in a thousand 
years. California is heading for what looks like one of the 
most severe drought in 500 years. And the data show that we are 
experiencing in the western United States, we are experiencing 
one of the most----
    Senator Sessions. Well, let me tell you what Dr. Pilkey 
said, who sat in that chair you are sitting in today just a few 
months ago, he is a climate impact expert, and he agrees that 
warming is partly caused by human emissions. But he testified 
``It is misleading and just plain incorrect to claim that 
disasters associated with hurricanes, tornadoes, floods or 
droughts have increased on climate change time scales either in 
the United States or globally.'` Dr. Roy Spencer at the 
University of Alabama testified ``There is little or no 
observational evidence that severe weather of any type has 
worsened over the last 30, 50 or 100 years.'` The American 
Enterprise Institute evaluated the data and the National 
Oceanic and Atmospheric Administration Palmer Drought Severity 
Index, are you familiar with that?
    Mr. Holdren. I am.
    Senator Sessions. And they concluded ``The Palmer Drought 
Severity Index shows no trend over the record period beginning 
in 1895 in terms of drought. More areas in the United States 
have experienced an increase in soil moisture than a decline.'` 
And the IPCC of April of last year admitted their previous 
reports had been in error, stating ``Based on updated studies, 
conclusions regarding global increasing trends in drought since 
the 1970's were probably overstated.'` And the congressional 
Research Service, our own group here, likewise finds that 
droughts haven't been increasing.
    Mr. Holdren. On your last point about global drought, of 
course we know that in a warming world with evaporation 
increasing, precipitation also increases. More places are 
getting wetter than are getting drier.
    Senator Sessions. Oh, so we don't have any drought?
    Mr. Holdren. So when you say global drought, if I may 
finish, when you say global drought, you are averaging out the 
places that are getting drier and the places that are getting 
wetter. What I am talking about is what has been happening in 
drought-prone regions. The first few people you quoted are not 
representative of the mainstream scientific opinion on this 
point. And again, I will be happy to submit for the record 
recent articles from Nature, Nature GeoScience, Nature Climate 
Change, Science and others showing that in drought-prone 
regions droughts are becoming more intense.
    Senator Whitehouse. The record will remain open for 2 weeks 
after this hearing.
    Senator Sessions. Mr. Chairman, I thank you and I thank the 
witness. We expect that a taxpayer paid government official 
should be very accurate and not advance a political agenda but 
tell us the absolute facts.
    Mr. Holdren. That is what I have been doing.
    Senator Sessions. I look forward to getting that additional 
information.
    Mr. Holdren. Happy to provide it.
    Senator Whitehouse. Thank you very much, Dr. Holdren. Thank 
you very much, Director Ashe.
    We are pressed for time, because we have a vote at 3:30, so 
let's see how quickly we can get the next panel on, and I will 
urge them to be particularly diligent about confining their 
remarks to the allotted period of time, and we will see if we 
can get some questions in.
    Let's swing right into action. I think you all heard the 
concerns that I have about our timeframe. We have been squeezed 
up against a vote that has been scheduled for 3:30. So we are 
going to have to try to fit in what we can.
    Let me start with Mr. Matson, who is the Vice President for 
Climate Adaptation, at Defenders of Wildlife. He directs 
Defenders' efforts to create and implement policies and 
strategies to safeguard wildlife and habitat from the effects 
of climate change. He has a BS in biology and geology from the 
University of Rochester, masters in environmental management 
from the Yale School of Forestry and Environmental Studies, and 
his masters research focused on biodiversity and management of 
the National Elk Refuge in Wyoming. Mr. Matson, please proceed. 
Your full statement will be made a matter of record.

     STATEMENT OF NOAH MATSON, VICE PRESIDENT FOR CLIMATE 
               ADAPTATION, DEFENDERS OF WILDLIFE

    Mr. Matson. Thank you, Mr. Chairman, Ranking Member Inhofe. 
Again, my name is Noah Matson. I am the Vice President for 
Climate Change Adaptation for Defenders of Wildlife, a national 
non-profit conservation organization. Thank you for the 
opportunity to provide input into this important hearing.
    Asking your indulgement for a moment, imagine a country 
where a single storm could kill almost 2,000 citizens and level 
over $100 billion worth of damage. Imagine a country where the 
majority of its fruits and vegetables and crops are threatened 
because of a prolonged drought. Imagine a country where whole 
villages have to be relocated and escape an eroding coast.
    I am not talking about the Philippines, Namibia or the 
Maldives. All these things have happened or are happening right 
here in America, where Hurricane Katrina pummeled the Gulf 
Coast, California's 3-year long drought is shriveling crops and 
the Alaskan Native village of Newtok is making plans to move as 
its coast washes away.
    We are woefully unprepared for ``natural disasters.'` Even 
less prepared as these and other disasters are magnified by a 
changing climate. Preparing for responding and adapting to the 
impacts of climate change is a moral and economic issue. Taking 
reasonable steps now to prepare for the future will save lives, 
save jobs, save money, save our communities and the nature that 
supports us.
    In preparing for the future we need to look to nature to 
provide many of the protective services we all need. We can 
reduce the risk of flooding by restoring flood plains that 
naturally absorb and slow flood waters. We can reduce the risk 
of water shortages and water quality degradation by maintaining 
and restoring watersheds. We can reduce the risk of wildlife by 
restoring forests near residential areas to more fire-adaptive 
ecosystems.
    Although nature can provide all these benefits to help 
protect our communities, wildlife and ecosystems are also being 
negatively impacted by climate change. Dr. Holdren and Dr. Ashe 
listed many of these impacts, so I won't repeat them. However, 
I personally have seen the impacts on habitat first-hand in a 
number of national wildlife refuges, including Prime Hook 
National Wildlife Refuge in Delaware. In 2009, a storm punched 
and breached the coastal dunes at the refuge, spraying 
saltwater into the refuge's freshwater marshes, critical 
migratory stopover for tens of thousands of ducks, gees and 
other migratory birds. The saltwater killed the marsh, 4,000 
acres in the span of a couple of years, as freshwater marsh 
grasses were converted to open water, limiting the ability of 
the refuge to provide for the migratory birds that depends on 
that habitat.
    The good news is the Federal Government, many State and 
local communities are beginning to plan for the future, a 
future unlike the past. The Obama administration is taking this 
issue seriously. Not only is the Administration tackling the 
causes of climate change head-on, limiting greenhouse gas 
emissions, the President has also issued an executive order on 
preparing for climate change.
    As described by Director Ashe, the Administration also 
released the National Fish, Wildlife and Plants Climate 
Adaptation Strategy. Since wildlife don't know when they have 
crossed jurisdictional boundaries, the intergovernmental 
approach is critical if we are going to have any chance of 
helping species respond to climate change, especially as they 
attempt to shift their ranges across the landscape.
    Despite these important advances, more needs to be done. 
Specifically, I urge the Congress to enact the Secure America's 
Future Environment Act. Mr. Chairman, your SAFE Act would 
protect American communities, wildlife and natural habitat from 
the increasingly destructive effects of climate change.
    Two, providing funding. Congress should provide adequate 
funding to maintain and expand key Federal programs supporting 
adaptation efforts and natural resources conservation. Three, 
we need to prepare better for disasters. Protecting and 
restoring natural systems is often the least expensive method 
of buffering communities against disasters, and therefore must 
be considered in disaster preparation and recovery. Finally, I 
urge you to protect large connected landscapes to facilitate 
species movements.
    On behalf of Defenders of Wildlife, I thank you for the 
opportunity to provide this input and I would be happy to take 
any questions. Thank you.
    [The prepared statement of Mr. Matson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Whitehouse. Thank you very much, Mr. Matson.
    Our next witness is David Houghton. He is the President of 
the National Wildlife Refuge Association. The National Wildlife 
Refuge Association works with the National Wildlife Refuge 
System in engaging other conservation non-profits, private 
landowners, and refuge friends groups in safeguarding wildlife. 
Mr. Houghton has worked for and in partnership with the U.S. 
Fish and Wildlife Service for more than 25 years, including a 
stint at the Rhode Island Refuge Complex years ago, where he 
served as deputy refuge manager.
    We are delighted to have him here, and please, Mr. 
Houghton, proceed with your testimony.

   STATEMENT OF DAVID HOUGHTON, PRESIDENT, NATIONAL WILDLIFE 
                       REFUGE ASSOCIATION

    Mr. Houghton. Senator Whitehouse, thank you very much. It 
is an honor and a pleasure to be here today to talk about these 
important issues.
    Again, I am David Houghton. I am President of the National 
Wildlife Refuge Association. The Association has worked since 
1975 to champion the integrity and the stature of the 150-
million acre national wildlife refuge system. Many do not know 
that the refuge system is almost twice as large as the national 
park system. It annually receives 46.5 million visitors and has 
an economic output of $2.4 billion into the American economy. 
There is a national wildlife refuge in every State and 
territory of this great Country.
    A growing body of evidence has linked climate change and 
effects on wildlife populations. Migration timing, age, 
structure, as well as condition with wildlife has been 
affected. This has also been affecting the National Wildlife 
Refuge System around the Country.
    I would like to talk about some of these effects and then I 
would like to talk about what the United States Fish and 
Wildlife Service is doing and how this has positive effects on 
the economy.
    During Hurricane Sandy, which hit in October 2012, 35 
national wildlife refuges were affected at a cost of $64 
million. That is equivalent to 15 percent of the annual 
appropriation to national wildlife refuges. In Rhode Island, at 
Trustom Pond and John Chafee National Wildlife Refuges, the 
barrier beaches were eroded and the coastal marshes were 
impacted.
    What was clear about Hurricane Sandy, though, was that the 
natural systems on these refuges did far better than the 
manmade systems. But our managers at Trustom Pond National 
Wildlife Refuge, who have been managing threatened and 
endangered species of piping plovers and least terns, had never 
seen a storm with this kind of impact. This storm also affected 
the New Jersey coast, leaving a 22 mile trail of debris over 
fragile marshes and woodlands at Edwin B. Forsythe National 
Wildlife Refuge.
    We also see the storm effects outside of the northeast. For 
example, Button Island National Wildlife Refuge in Louisiana, 
which was one of the first established national wildlife 
refuges in 1904 by Teddy Roosevelt was initially 18,000 acres 
in total. Now, after hurricane after hurricane, it is only 
2,000 acres. Passage Key in Tampa was a refuge that was 
established by Teddy Roosevelt. Because of hurricanes, et 
cetera, it is no longer. It is no longer on the face of the 
earth. So these storm events have had great impacts to the 
national wildlife refuge system.
    I would also like to talk about wildfires. We have seen 
increasingly large catastrophic wildfires in the western United 
States. This means that more resources are devoted toward 
fighting these catastrophic fires as well as the interface 
between forest and our urban areas. This has had an effect on 
national wildlife refuges because prescribed burn is a very 
important wildlife tool. And the dollars are not there to be 
able to conduct these fires any more.
    So I would also like to talk about refuges as an economic 
powerhouse. A report that the Fish and Wildlife Service put out 
called Banking on Nature said that for every dollar that 
Congress invests into the National Wildlife Refuge system, 
$4.87 are returned to the American economy. That means that 
$2.4 billion came into the economy from refuges. So not only 
does climate change have an effect on wildlife but also on the 
refuges ability to provide to the American economy.
    So what is the Fish and Wildlife Service doing about it? In 
Rhode Island, we are restoring over 300 acres of marsh, we are 
rebuilding a road into Sachuest National Wildlife Refuge. In 
the Everglades, in the State of Florida, we are working on a 
new type of refuge. This is a large, landscaped refuge that is 
able to connect various different endangered species to one 
another. And in the Pacific, we are working on a refuge, 
Palmyra Atoll National Wildlife Refuge, which is a unique reef 
system. We are working very hard to make sure that the reef 
remains.
    Thank you very much, sir.
    [The prepared statement of Mr. Houghton follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    Senator Whitehouse. Thank you very much.
    Our next witness, I have a point of personal privilege in 
recognizing. He is Christopher Brown, the president of the 
Rhode Island Commercial Fishermen's Association. The Rhode 
Island Commercial Fishermen's Association was founded in 2000 
to protect Rhode Island's first industry from becoming extinct, 
by maintaining the commercial fishery in the State of Rhode 
Island as a way of life for present and future generations.
    Mr. Brown is the captain of the fishing vessel Proud Mary 
out of Point Judith, Rhode Island. He built his first boat in 
1978 at the age of 20. And he sailed that vessel, the 
Grandville Davis, for 31 years. He owns Brown Family Seafood, 
and we are delighted to have him here. Mr. Brown?

    STATEMENT OF CHRISTOPHER BROWN, PRESIDENT, RHODE ISLAND 
               COMMERCIAL FISHERMEN'S ASSOCIATION

    Mr. Brown. Thank you, Mr. Chairman and distinguished 
members of the committee.
    Let me begin by thanking you all for letting me share some 
of the perspectives that I have garnered in over 35 years as a 
fisherman and 25 years in service to the resource and my 
industry.
    I fish on a much different ocean today than when I first 
started fishing with my grandfather as a boy in the mid-1960's. 
When I started out fishing, catching haddock in the waters 
around Point Judith was commonplace and they were a daily 
component of our catch. Last year, in 200 days of fishing, I 
caught only two. They are considered fully rebuilt and are now 
managed jointly with Canada by virtue of the climate that they 
have chosen to live in.
    In the fall of 2013, in Block Island Sound, I caught 1,800 
pounds of spot in a single set of my net. These are fish that 
are indigenous to the Carolinas, not southern New England. I 
had never seen a single one until the late 1990's. Although not 
greatly abundant, regularly caught now in Rhode Island are the 
species of croaker, grouper, cobia, drum and tarpon. My 
grandfather never saw a single one of these in his entire life 
as a fisherman.
    Dogfish were determined to have been over-fished roughly 15 
to 20 years ago and were assigned to a rebuilding plan. The 
plan was driven by incorrect biological assumptions of their 
reproductive capability and initial abundance. They have now 
overpopulated the waters of the Atlantic from Hatteras to Nova 
Scotia to the extent that there is no longer an effective 
migration. In their current unexploited condition, they stand 
to significantly hamper the recovery of species that either 
compete with or serve as a food source. These are the findings 
of Dr. James Sulowsky, Ph.D., professor at the Unviersity of 
New England, the foremost authority on dogfish in the United 
States.
    I hope that I have adequately portrayed an ocean that is in 
flux. In New England, we currently are an industry that is in 
search of a science-based, regulatory co-existence with the 
laws that govern our fishery. We are a cold water region that 
has suffered greatly at the hands of a warming regime. Our 
inability to successfully rebuild several key stocks is well 
documented. We have evoked the ire of Magnusson repeatedly, and 
been put to the lash at the hands of an Act that up until now, 
reasons that ideology serves as a fair substitute for sound and 
relevant science.
    The Magnusson Act was assembled at a time when the science 
surrounding our fisheries was in its infancy. As we should 
anticipate, the scientific perspective of the management of our 
oceans should evolve. The Act has not. To date, we have failed 
to articulate those discoveries into actionable policy within 
our fisheries. Any national policy that remains predicated upon 
outdated scientific perspectives will do unnecessary economic 
harm to those whom it serves. It will limit the productivity of 
what I believe to be our national strategic protein reserves 
and will to some extent damage our national food security.
    Our failure to tease out an edified response to these 
problems from the larger national debate surrounding climate 
shift strands the enormous sum that we have invested in science 
and leaves my region without an effective solution to an 
ongoing and complex environmental problem. Our fields will lay 
fallow until we dare fashion a different response.
    The framers of Magnusson were wise in their decision to 
construct a document that was largely conceptual by nature. 
Given that it is thematic and overarching it is therefore 
lacking in the granular specificity that is needed to deal with 
environmental problems that are beyond the realm of what was 
once known. Magnusson Stevens is a profoundly valuable document 
that should remain our North Star of fisheries management 
policy. But in New England, in the face of wholesale systemic 
change, as a standalone document, it has failed to produce the 
biological or economic results that have been promised and 
delivered elsewhere. It is in need of a reasonable complement. 
I believe that the SAFE Act is that complement. It is one which 
does not attempt to separate the fish from the surrounding sea. 
I believe it is worthy of your approval.
    The wild-caught fisheries of the Northeast may ultimately 
prove to be the coal miner's canary for the Nation as we 
grapple with the issue of climate change. A reconsideration of 
our strategy is called for, given the enormous chasm between 
what we have endured and what we have gained in New England. I 
view the SAFE Act as a sound, reasonable, and measured 
complement to Magnusson. It represents a new set of eyes on the 
problem and another tool in the tool box. It respects both 
sides of the larger debate and a chance to evaluate the 
potential for new strategies in healing our Nation's most 
iconic fishery.
    I urge you to pass this Bill along for further 
consideration and discussion. Thank you.
    [The prepared statement of Mr. Brown follows:]

        Statement of Christopher Brown, President, Rhode Island 
                   Commercial Fishermen's Association

    Let me begin by thanking you all for letting me share some 
of the perspectives that I have garnered in over 35 years as a 
fisherman and 25 in service to the resource and my industry.
    I fish on a much different ocean today than when I first 
stared fishing with my grandfather as a boy in the mid-1960's. 
When I started out, catching haddock in the waters around Pt 
Judith was commonplace and a daily component of our catch.
    Last year I caught only two. They are considered fully 
rebuilt and are now managed jointly with Canada by virtue of 
the climate that they have chosen to live in.
    In the fall of 2013 I caught 1800 pounds of spot in a 
single set off my net. These are a fish that are indigenous to 
the Carolinas. Not Southern New England. I had never seen a 
single one until the late 90's. Although not greatly abundant, 
regularly caught now in Rhode Island are the species of 
Croaker, Grouper, Cobia, Drum and Tarpon. My grandfather never 
saw a single one of these in his entire life as a fisherman.
    Dogfish were determined to have been over fished roughly 15 
years ago and were assigned to a rebuilding plan. The plan was 
driven by incorrect biological assumptions of their 
reproductive capability and initial abundance. They have now 
overpopulated the waters of the Atlantic, from Hatteras to Nova 
Scotia to an extent that there is no longer an effective 
migration. In their current unexploited condition, they stand 
to significantly hamper the recovery of a species that either 
compete with or serve as a food source. These, the findings of 
Dr. James Sulowsky PHD, Professor at The University of New 
England, the foremost authority on dogfish in the U.S.
    I hope that I have adequately portrayed an ocean that is in 
flux. In New England, we currently are an industry that is in 
search of a science based, regulatory co-existence with the 
laws that govern our fishery. We are a cold water region that 
has suffered greatly at the hands of a warming regime. Our 
inability to successfully rebuild several key stocks is well 
documented. We have evoked the ire of Magnusson, and been put 
to the lash at the hands of an act that reasons repeatedly that 
ideology serves as a fair substitute for sound relevant 
science.
    The Magnusson act was assembled at a time when the science 
surrounding our fisheries was in its infancy. As we should 
anticipate, the scientific perspective of the management of our 
oceans should evolve. The act has not. To date, we have failed 
to articulate those discoveries into actionable policy within 
our fisheries. Any national policy that remains predicated on 
outdated scientific perspectives will do unnecessary economic 
harm to those it serves; it will limit the productivity of what 
I believe, are our national protein reserves and compromise to 
some extent our national food security. Our failure to tease 
out an edified response to these problems from the larger 
national debate surrounding climate shift, strands the enormous 
sum that we have invested in science and leaves my region 
without an effective solution to an ongoing and complex 
environmental problem. Our fields will lay fallow till we dare 
fashion a different response.
    The framers of Magnusson were wise in their decision to 
construct a document that is largely conceptual by nature. 
Given that it is thematic and overarching it is there for 
lacking in the granular specificity that is needed to deal with 
environmental problems that are beyond the rehelm of what was 
once known. Magnusson Stevens is a profoundly valuable document 
that should remain our North Star of fisheries management 
policy, but In New England, in the face of wholesale systemic 
change, as a stand-alone, document, it has failed to produce 
the biological or economic results that have been promised and 
delivered elsewhere. It is in need of a reasonable compliment, 
one which is free to consider environmental conditions as a 
necessary component of its decisionmaking process. One which 
does not attempt to separate the fish from the surrounding sea. 
I believe that the ``Safe Act'' could serve our national 
transition to ecosystem based management, as is called for in 
Magnusson's vision of our fishery.
    The wild caught fisheries of the Northeast may ultimately 
prove to be the ``coal miner's canary'' for this Nation as we 
grapple with the issue of climate change. A reconsideration of 
strategy is called for given the enormous chasm between what we 
have endured and what we have gained.
    I view the Safe Act as a sound, reasonable, and measured 
compliment to Magnusson. It represents a new set of eyes on the 
problem and another tool in the tool box. It respects both 
sides of the larger debate and a chance to evaluate the 
potential for new strategies in healing our Nation's most 
iconic fishery. I urge you to pass this Bill along for further 
consideration and discussion.

    Senator Whitehouse. Thank you, Captain Brown. I appreciate 
it.
    Our next witness is Dr. Patrick Moore, the Chair and Chief 
Scientist of Ecosense Environmental in Vancouver, Canada. Dr. 
Moore is a co-founder and former chair of Greenspirit 
Strategies, an environmental consulting and communications firm 
in Vancouver, Canada. He received a bachelor of science in 
forest biology and a Ph.D. in ecology from the University of 
British Columbia in Canada. Welcome, and please proceed with 
your statement.

 STATEMENT OF PATRICK MOORE, PH.D., CHAIR AND CHIEF SCIENTIST, 
                     ECOSENSE ENVIRONMENTAL

    Mr. Moore. Thank you, Chairman Whitehouse, Ranking Member 
Inhofe.
    In 1971, as a Ph.D. student in ecology, I joined an 
activist group in a church basement in Vancouver Canada and 
sailed on a small boat across the Pacific to protest U.S. 
hydrogen bomb testing in Alaska. We became Greenpeace.
    After 15 years in the top committee I had to leave, as 
Greenpeace began to adopt policies that I could not accept from 
my scientific perspective. Climate change wasn't really an 
issue when I abandoned Greenpeace, but it certainly is today.
    There is no scientific proof that human emissions of carbon 
dioxide are the dominant cause of the minor warming of the 
earth's atmosphere over the past 100 years. If there were such 
a proof it would be written down for all to see. No actual 
proof, as it is understood in science, exists. Please see 
Exhibit 1.
    The IPCC states, ``It is extremely likely that human 
influence has been the dominant cause of the observed warming 
since the mid-20th century.'` ``Extremely likely'` is not a 
scientific term but rather a judgment, as in a court of law. 
The IPCC defines extremely likely as a 95 to 100 percent 
probability. Those numbers are not the result of any 
mathematical calculation or statistical analysis. They have 
been invented to express the ``expert judgment'` as determined 
by the IPCC.
    As noted by many observers, including Dr. Freeman Dyson of 
the Princeton Institute for Advanced Studies, a computer model 
is not a crystal ball. We may think it sophisticated, but we 
cannot predict the future with a computer model any more than 
we can make predictions with crystal balls, throwing bones, or 
by appealing to the gods. When modern life evolved over 500 
million years ago, please see the second exhibit, 
CO<INF>2</INF> was more than 10 times higher than today, yet 
life flourished at that time. Then an ice age occurred 450 
million years ago when CO<INF>2</INF> was still 10 times higher 
than today. The fact that there were both higher temperatures 
and an ice age at a time when CO<INF>2</INF> was 10 times 
higher than they are today fundamentally contradicts the 
certainty that CO<INF>2</INF> emissions are the main cause of 
global warming.
    Today we remain locked in what is still the Pleistocene Ice 
Age, with an average global temperature of 14.5 degrees 
Celsius. This compares with a low of about 12 degrees Celsius 
during the periods of maximum glaciation in this ice age to an 
average of 22 degrees Celsius during the Greenhouse Ages, which 
occurred over longer time periods prior to the most recent ice 
age. During the Greenhouse Ages, there was no ice on either 
pole and all the land was tropical and sub-tropical. As 
recently as 3 million years ago the Canadian Arctic islands 
were forested. Today, we live in an unusually cold period in 
the history of life, note on the graph here 14.5 degrees, an 
unusually low period in carbon dioxide in the history of life, 
400 ppm.
    There is ample reason to believe that a sharp cooling of 
the climate would bring disastrous results for human 
civilization, where there is no reason to believe that a warmer 
climate would be anything but beneficial for humans and the 
majority of other species. Please see Exhibit 3.
    The IPCC states that humans are the dominant cause of 
warming since the mid-20th century, which was 1950. From 1910 
to 1940, there was an increase in global average temperature of 
half a degree Celsius over that 30-year period. Then there was 
a 30-year pause until 1970. This was followed by an increase of 
.57 degrees Celsius during the 30-year period from 1970 to 
2000. Since then there has been no increase. This in itself 
tends to negate the validity of the computer models, as 
CO<INF>2</INF> emissions have continued to accelerate during 
this time.
    The increase in temperature between 1910 and 1940 was 
virtually identical to the increase between 1970 to 2000. Yet 
the IPCC does not attribute the increase from 1910 to 1940 to 
human influence. They are clear in their belief that human 
emissions impact only increased the temperature since the mid-
20th century. Why does the IPCC believe that a virtually 
identical increase in temperature after 1950 is caused mainly 
by human influence, when it has no explanation for the nearly 
identical increase from 1910 to 1940?
    It is important to recognize that humans are a tropical 
species. We evolved at the equator in a climate where freezing 
temperature did not exist. The only reasons we can survive 
these cold climates are fire, clothing, and housing. It could 
be said that frost and ice are the enemies of life, except for 
those relatively few species that have evolved to adapt to 
freezing temperatures during the ice age. It is extremely 
likely that a warmer temperature than today's would be far 
better than a cooler one.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Moore follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Senator Whitehouse. Thank you very much, Dr. Moore. We now 
turn to our final witness, Mr. Robert Bryce. He has served as a 
senior fellow at the Center for Energy Policy and the 
Environment at the Manhattan Institute since April 2010. He is 
a journalist and author based in Austin, Texas. From 2006 to 
2010 he worked as a managing editor of the online publication 
Energy Tribune. Mr. Bryce received his BFA from the University 
of Texas at Austin in 1986.
    Mr. Bryce, please proceed.

 STATEMENT OF ROBERT BRYCE, SENIOR FELLOW, MANHATTAN INSTITUTE 
                      FOR POLICY RESEARCH

    Mr. Bryce. Thank you, and good afternoon.
    Over the past decade or so, the U.S. Government has enacted 
policies to encourage the use of renewable energy in general 
and wind energy in particular. These policies are, in theory, 
designed to address the issue of climate change.
    But the facts show three certain things. First, the wind 
energy sector has been getting billions of dollars in Federal 
subsidies, even though it is killing significant numbers of 
some of America's most iconic wildlife. Second, Federal 
authorities have largely turned a blind eye to the wind 
industry's slaughter of our wildlife. And finally and most 
importantly, this slaughter is being done in the name of 
climate change, but whatever reductions in carbon dioxide 
emissions that may be occurring due to the deployment of wind 
turbines are so small as to be insignificant.
    I began writing about the Migratory Bird Treaty Act and the 
Eagle Protection Act in the late 1980's. At that time the Fish 
and Wildlife Service estimated that roughly 600,000 birds per 
year were being killed after coming in contact with illegal oil 
pits in the oil fields of Texas, New Mexico and Oklahoma. In 
response, the Fish and Wildlife Service rightly began a multi-
State, multi-jurisdictional crackdown on these illegal 
operations. They brought more than 200 cases against the oil 
and gas industry at that time for violations of the Migratory 
Bird Treaty Act and Eagle Protection Act.
    Today, biologists are estimating that U.S. wind turbines 
are killing about 900,000 bats and 600,000 birds per year. The 
Fish and Wildlife Service's own biologists have documented 
dozens of cases of eagle kills by wind turbines, including at 
least six bald eagles. They have documented now eagle kills in 
14 States. Between 2007 and 2011, they found a twelvefold 
increase in the annual rate of eagles being killed by wind 
turbines. And yet to date, the Fish and Wildlife Service and 
the Department of Justice have brought exactly one, I repeat, 
one, prosecution against the wind industry for clear and 
continuing violations of some of America's oldest wildlife 
laws.
    Furthermore, and most astoundingly, the Interior Department 
is now considering permits that would allow the wind industry 
to kill eagles and other migratory birds for up to 30 years.
    Now, let me discuss the more important issue here of 
CO<INF>2</INF> emissions, and let me be blunt. The birds and 
bats that are being killed by America's wind turbines are 
effectively being killed for no reason. Widespread deployment 
of wind turbines is not an effective climate change strategy. 
In fact, wind turbines are nothing more than climate change 
scarecrows. This is not an opinion, this is basic math.
    The American Wind Energy Association estimates that in 
2012, 60,000 megawatts of wind turbine capacity in the United 
States resulted in a reduction in CO<INF>2</INF> emissions of 
roughly 80 million tons. This amounts to two-tenths of 1 
percent of global carbon dioxide emissions. Climate change 
activists repeatedly tell us to do the math. OK, let's do the 
math. Since 1982, global carbon dioxide emissions have been 
rising by an average of 500 million tons per year. Therefore, 
if we wanted to use wind energy merely to stabilize carbon 
dioxide emissions globally, and remember, this will not cut 
existing demand for coal, oil or natural gas, it would require 
the installation of roughly 375,000 megawatts of new wind 
energy capacity every year.
    The power density of wind energy is 1 watt per square 
meter. Therefore, the math is simple. It would require, to 
stabilize CO<INF>2</INF> emissions growth, it would require 
covering a land area of roughly 375,000 square kilometers, an 
area the size of Germany, and we would have to do so every 
year. If we reduce that to a daily basis, ladies and gentlemen, 
it would require us to cover roughly 1,000 square kilometers, a 
land area the size of 17 Manhattan islands, with wind turbines, 
and we would have to do so every year. And because of the noise 
those wind turbines make, no people could live on that vast 
area of land. And further, and most obviously, the more wind 
turbines we erect, the more birds and bats we will kill.
    About 5 years ago I testified in this same Senate office 
building about our energy policy here in the United States. If 
we are going to agree that CO<INF>2</INF> emissions are a 
problem, and we want to do something about it without 
destroying our economy, we must embrace the technologies that 
are affordable, scalable and are lower carbon than oil and 
coal. That means end to end, natural gas to nuclear.
    Thank you.
    [The prepared statement of Mr. Bryce follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
   
    
    Senator Whitehouse. Thank you very much, Mr. Bryce.
    We have a few minutes, so I will try to be very brief. Let 
me first thank Christopher Brown for being here. Mr. Brown, you 
said in your testimony that there was room for improvement in 
the relationship between your fishing community and the 
scientific community and improved data collection. Could you 
just briefly elaborate on that?
    Mr. Brown. Yes. The Magnusson Act has almost a reckless 
pursuit of its desires. What we are attempting to achieve with 
it is just not possible. Dr. Sulowsky, as I stated, has done 
extensive stable isotope analyses and determined that it will 
be impossible to recover a number of stocks without first 
removing the ones that compete with them.
    The Magnusson Act is a wonderful document, but it is in 
need of supplement. It is in need of consideration of things 
that were beyond its possibility to understand and define when 
it was established.
    Senator Whitehouse. And do you approve of initiatives like 
Captain Rule's effort with the Virginia Institute of Marine 
Science scientists to bring fishermen and scientists together 
in data collection and the experiment, I guess you would call 
it, the initiative that is underway with Dr. Parker in the 
University of Rhode Island joining with the Rhode Island 
Lobstermen's Association?
    Mr. Brown. Yes, I approve of those actions wholeheartedly. 
Magnusson calls for a co-managed fishery. Co-management finds 
its roots in the co-authoring of science. Until we are co-
authors of science, this industry is co-manager of nothing.
    Senator Whitehouse. Thank you very much. We very often talk 
about the Department of Fish and Wildlife, Division of Fish and 
Wildlife, but we end up usually talking more about the wildlife 
than the fish. So I am delighted that you are here.
    David, can you say a brief word about the public-private 
nature of the partnerships that the National Wildlife Refuge 
Association supports?
    Mr. Houghton. Yes, absolutely. A great example would be 
Everglades National Wildlife Refuge and Conservation Area. This 
was established last year and it is a partnership with 
ranchers. In fact, there are about a million acres of ranchers 
who would like to participate in the National Wildlife Refuge.
    So an area that is large and connected will allow 
endangered species like Florida black bear or Florida panther 
to move throughout the landscape as that landscape changes with 
changing climate. But those are not the only critters that 
benefit. Ranchers that have been there for 500 years will have 
an upside. There is a military base in the middle of this. So 
our men and women of the military will be able to train as they 
see in combat, which has a big benefit to them.
    Last, the Everglades supplies the water supply for 6.5 
million people. So we can bring climate change adaptation, and 
we can also help a 500 year old tradition of ranching, the 
military and water for 6.5 million people, all with 
conservation action of the Everglades headwaters.
    Senator Whitehouse. Thank you very much.
    Before I turn to our ranking member to close out the 
hearing, I would like to submit for the record reports from the 
U.S. Global Climate Change Research Program, the National 
Climate Assessment, the National Academies and the 
Intergovernmental Panel on Climate Change, which all agree that 
human activities have altered the world's climate. There is in 
fact clear scientific consensus among the scientific community 
that human-induced climate change is a reality.
    I would also like to submit a 2010 report entitled A Human 
Health Perspective on Climate Change for the record. These same 
reports note the negative effects of climate change on human 
health and the economy through rising sea levels, coastal 
flooding, increased frequency of drought and negative health 
effects.
    I would also like to submit for the record a National 
Wildlife Federation study that details the detrimental effects 
of carbon pollution on our wildlife, like mercury emissions 
from electric power plants, which affect wildlife and fish. I 
would also like to submit a Fish and Wildlife Service fact 
sheet on migratory bird mortality and a Sibley Guides article 
which states that as many as 976 million bird deaths a year are 
attributable to collisions with windows, 72 million bird deaths 
are estimated as a result from pesticides, and at least 39 
million bird deaths are from domestic feral cats, 15 million 
birds a year are killed in North American in the carefully 
managed annual waterfowl hunt, and the greatest threat to all 
birds continues to be loss or degradation of habitat due to 
human development and disturbance.
    [The referenced information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Senator Whitehouse. So with that, I turn to my 
distinguished ranking member.
    Senator Inhofe. I would like to ask the question, then, how 
many of those birds you referred to are bald eagles.
    Mr. Bryce, I really enjoyed your testimony. In my opening 
statement I said some of the things that you had repeated, or I 
think we got that from you, concerning the extensive land that 
is used by renewable fuels as opposed to the traditional fuels. 
Is there anything you would like to say, how can we justify all 
the land that is used for renewables as opposed to traditional 
forms? And I refer to oil and gas.
    Mr. Bryce. Thank you, Senator.
    My short response, sir, is density is green. Regardless of 
your stance on environmental issues, left, right, center, we 
can all agree that small footprints are ideal. And that is 
where I part with the traditional left and the green left when 
it comes to the issue of energy production. I have a new book 
coming out in May in which I break this down. The power density 
of energy is 1 watt per square meter. To replace coal-fired 
power plants in the United States, then, if we wanted to 
replace them all with wind energy, it would require setting 
aside a land area the size of Italy.
    With regard to renewable fuels and biofuels, I have been a 
long-time of the corn ethanol scam. Why? Because the power 
density is simply too low. Further, from a moral standpoint, I 
reject the idea of burning food to make fuel.
    But the problem, sir, is fundamentally, again, basic 
physics and basic math. We don't have enough land, because the 
power density is so low, to make significant quantities of 
energy based on renewable energy in general, but particularly 
wind energy and biofuels.
    Senator Inhofe. And I appreciate that very much. I would 
like to, let me just go ahead and, Dr. Moore, when you talked 
about the various ages that we went through, I often use the 
one very close to what you said, I would say in 1895, we went 
into a period of time that was a cold period, and from about 
1918 to 1945 a warmer period, from 1945 to in the 1970's, a 
cooler period. The interesting thing about that is, the 
greatest surge in emissions of CO<INF>2</INF> happened right at 
the end of, during and at the end of World War II, which 
precipitated, not a warm period but a cooler period, is that 
correct?
    Dr. Moore. There certainly was a pause at that time. It 
went up and down. But CO<INF>2</INF> emissions have 
continuously increased since they began in earnest after the 
Second World War. I think the pause that is occurring now is 
actually more fundamental in terms of, why isn't the 
temperature continuing to increase like it did between 1970 and 
2000? It has basically just leveled off flat, even though 
CO<INF>2</INF> emissions continue to increase, not just 
continue to accumulate, but continue to increase.
    Senator Inhofe. The same thing that has been going on since 
the turn of the century, 2000, for the last 10, 12 years.
    Mr. Moore. Correct. Actually, if you look at the last 17 
years, from 1996, it is flat. So this is the thing that 
everybody is struggling to explain, and people who still firmly 
believe that humans are the main cause are coming up with, 
there are 14 explanations now that have been put forward, some 
of which actually contradict each other.
    So it is a bit of an act of desperation, because one of the 
real problems was when the IPCC was first set up, it only 
included the World Meteorological Organization, which is 
meteorologists who are always concerned with very short time 
spans of what is going to happen in the next 5 days, and the 
United Nations Environment Program, which is environmentalists. 
So weathermen and environmentalists got control of the whole 
climate change agenda.
    At the same time, their mandate was only to look at human 
effects on climate change, rather than the vast number of 
natural effects that have been affecting climate change since 
the beginning of the earth.
    Senator Inhofe. And reference has been made to IPCC several 
times during the course of this hearing. I suggest to you, and 
I would ask you if you agree, when you talk about IPCC, you are 
talking about United Nations, that is where this thing started. 
And I would suggest to my chairman, as long as we are putting 
things into the record, unless there is some reason that it 
can't be done, I would like to have the last chapter of my book 
called The Greatest Hoax, it is on the history of the IPCC and 
the United Nations entered into the record also.
    Senator Whitehouse. I can't see any reason why it shouldn't 
be, and assuming there is none, it will be, without objection.
    Senator Inhofe. Very good.
    [The referenced information was not recieved at time of 
print.]
    Senator Inhofe. I think it is really important to look at 
this and realize, the IPCC, whatever happened to Climate Gate? 
The media just drops this thing, and yet that was totally 
discredited during that period of time. We had a witness here 
that had a background with MIT. One of the lead scientists with 
MIT is one that totally contradicted, Richard Lindsay, that is 
right.
    So anyway, I just hope that we can look at this 
realistically, and when you stop and realize no one is taking 
an issue with this, that since we started talking about the 
legislation that would do what the President is trying to do 
right now through regulation, since he couldn't get it through, 
one of the reasons was that the science is not settled. And the 
second reason is that people agree, they understand that the 
cost of this, if they would implement the cap and trade as 
proposed in legislation, the cost would be somewhere between 
$300 billion and $400 billion a year. And as our own 
administrator of the EPA said, the first one appointed by 
President Obama, it really wouldn't make any difference what we 
do here in the United States, because this isn't where the 
problem is. That isn't a question, other than think about it.
    Thank you, Mr. Chairman.
    Senator Whitehouse. Thank you very much. Thank you very 
much, Ranking Member Inhofe. As any witness in this proceeding 
and frankly, any previous witness of prior proceedings in this 
committee will know, there are widely divergent views of the 
world reflected here. You see it in its full flourish today as 
well.
    So I will bring this hearing to conclusion. The record will 
remain open for an additional 2 weeks. I will also add a 
statement for the record of the U.S. Geological Survey, 
Department of the Interior, and there is also a collection of 
data regarding the funding sources of the Manhattan Institute 
for Policy Research.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Inhofe. I would like to add, I would like to sit 
around and visit and thank all the witnesses for coming, but we 
are 8 minutes into a vote right now.
    Senator Whitehouse. And we are going to make a quick 
escape.
    I thank very much the witnesses for appearing. We 
appreciate your time this afternoon.
    [Whereupon, at 3:41 p.m., the committee was adjourned.]
    [Additional material submitted for the record follows.]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
</pre></body></html>
